No. 20-374

In the Supreme Court of the United States
CONTINENTAL RESOURCES, INC.,
Petitioner,
v.
ZACHARY BUCKLES, DECEASED, BY AND THROUGH HIS
PERSONAL REPRESENTATIVE, NICOLE R. BUCKLES,
ET AL.,
Respondents.
On Petition for Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit
RESPONDENTS’ BRIEF IN OPPOSITION
A. CLIFFORD EDWARDS DEEPAK GUPTA
EDWARDS & CULVER
Counsel of Record
1648 Polly Dr., Suite 206 LINNET DAVIS-STERMITZ
GUPTA WESSLER PLLC
Billings, MT 59102
(406) 256-8155
1900 L St. NW, Suite 312
Washington, DC 20036
(202) 888-1741
deepak@guptawessler.com
Counsel for Respondents
January 22, 2021

-iQUESTION PRESENTED
May a nonresident corporation’s allegedly tortious
conduct in Montana provide a sufficient forum-related
connection for courts to assert specific personal
jurisdiction over that corporation in Montana?

-iiTABLE OF CONTENTS
Question presented ................................................................ i
Table of authorities ..............................................................iii
Introduction ........................................................................... 1
Statement ............................................................................... 2
A. Factual background ............................................... 2
B. Procedural background ......................................... 6
Reasons for denying the writ............................................. 12
I.

This Court’s decision in the Ford cases will
make no difference in this case. ......................... 12

II. The factbound issues that this case actually
presents make it a poor candidate for
certiorari. .............................................................. 16
Conclusion ............................................................................ 19

-iiiTABLE OF AUTHORITIES
Cases
Beckman v. Butte-Silver Bow County,
1 P.3d 348 (Mont. 2000) ............................................ 9
Bristol-Myers Squibb Co. v. Superior Court,
137 S. Ct. 1773 (2017) .................................... 8, 18, 19
Calder v. Jones,
465 U.S. 783 (1984) .................................................. 17
Cox Broadcasting Corp. v. Cohn,
420 U.S. 469 (1975) .................................................. 18
Data Disc, Inc. v. Systems Technology
Associates, Inc.,
557 F.2d 1280 (9th Cir. 1977) ................................... 9
Grizzly Security Armored Express, Inc. v. Armored
Group, LLC,
255 P.3d 143 (Mont. 2011) ........................................ 8
Hanson v. Denckla,
357 U.S. 235 (1958) .................................................. 14
Keeton v. Hustler Magazine,
465 U.S. 770 (1984) ............................................ 15, 18
Kulko v. Superior Court,
436 U.S. 84 (1978) .................................................... 17
Stricker v. Blaine County,
453 P.3d 897 (Mont. 2019) ........................................ 9

-ivWalden v. Fiore,
571 U.S. 277 (2014) .................................................... 8
World-Wide Volkswagen Corp. v. Woodson,
444 U.S. 286 (1980) ............................................ 15, 19
Other authorities
Catrin Einhorn, Billions of Barrels of Oil May
Lie Under Northern Plains, N.Y. Times
(Apr. 11, 2008) ............................................................ 2
W. Page Keeton et al., Prosser and Keeton on
Torts § 69 (5th ed. 1984) ......................................... 16
Mont. R. Civ. P. 4(b)(1)(A) ................................................. 11
Jad Mouawad, Fuel to Burn: Now What?, N.Y.
Times (Apr. 10, 2012) ................................................ 2
Alan O. Sykes, The Economics of Vicarious
Liability, 93 Yale L.J. 1231 (1984) ........................ 16

-1INTRODUCTION
The petition for certiorari goes to great lengths to
obscure the feature of this case that is most relevant: It
was petitioner Continental Resources’ allegedly tortious
conduct in Montana (inadequate supervision of an oildrilling site from a Montana field office) that caused the
plaintiffs’ claims. The decision below—that Montana
courts could assert specific jurisdiction over Continental
for the company’s Montana-based conduct, even though
the injury itself occurred in North Dakota—is thus utterly
unremarkable and unworthy of review.
Continental nevertheless hopes to ride the coattails of
Ford Motor Co. v. Montana Eighth Judicial District, No.
19-368, and Ford Motor Co. v. Bandemer, No. 19-369, in
which this Court granted certiorari to address whether
there can be specific jurisdiction over a manufacturer of
mass-produced goods when the specific widget that
injured the plaintiffs was manufactured, designed, and
sold outside the forum but the defendant regularly sold
and marketed the same product within the forum and the
product caused injury there.
The Ford cases present, if anything, the opposite
problem from this one. In those cases, the injuries arose
inside the forum while the acts or omissions giving rise to
the claims arose outside it. Here, the injury occurred
outside the forum (in North Dakota), while the allegedly
tortious conduct giving rise to that injury occurred within
it (in Montana). The plaintiffs here, unlike in the Ford
cases, do allege a causal connection between Continental,
Montana, and their claims. So, regardless of how this
Court rules, the outcome of the Ford cases is unlikely to
shed any light on this run-of-the-mill, factbound specificjurisdiction case. Certiorari should be denied.

-2STATEMENT
The question in this case is whether Continental is
subject to personal jurisdiction in Montana for claims arising out of the death of subcontractor Zachary Buckles at
a North Dakota oil and gas extraction site that the company supervised from its Sidney, Montana field office. Jurisdictional discovery revealed that this supervision from
the Montana office was extensive. From Montana, Continental employed regional and site-specific safety and operations managers, arranged site visits, and managed site
safety at the site where Buckles died, as well as Continental sites throughout the Bakken region.
A. Factual background
1. Few geological features have been as central to the
last two decades of American life as the Great Plains’
Bakken formation. A vast shale oil deposit stretching over
hundreds of thousands of square miles of North Dakota
and Montana, the formation has fueled an extraordinary
boom in domestic American oil and natural gas production, transforming the civic and natural landscape of the
Great Plains. See Jad Mouawad, Fuel to Burn: Now
What?, N.Y. Times (Apr. 10, 2012); Catrin Einhorn, Billions of Barrels of Oil May Lie Under Northern Plains,
N.Y. Times (Apr. 11, 2008).
Continental has been at the center of it all. An Oklahoma corporation, the oil and gas company operates
across the Great Plains, with field offices in Montana,
North Dakota, and South Dakota, as well as Oklahoma
and Texas. App. 44. In Montana alone, the company owns
an interest in 508 oil and gas wells, and operates 348 of its
own. Id.

-32. This case concerns Continental’s Montana-based
supervision and testing of a North Dakota site, which the
courts below termed the Columbus Federal/Tallahassee
complex—a twenty-tank, five-well site producing crude oil
and natural gas. Among the tasks required to run such a
complex is the sensitive and dangerous task of oil gauging,
or flow-testing—monitoring the flow rate of oil from a
newly producing well into a holding tank by taking hourly
manual readings of the level of crude in the tanks at an oil
tank battery, checking for leaks, adjusting pumping system controls to hit desired flow rates, and ensuring that
the oil leaves by truck or pipeline. App. 4.
To arrange for flow-testing at the Columbus Federal/Tallahassee complex, Continental engaged a Montana corporation, BH Flowtest, Inc. Id. Through a master
services agreement, BH Flowtest agreed to perform the
tasks listed above—together with ensuring that “everything ran smooth[ly].” Id. The parties agreed on a few
other points: BH Flowtest was an independent contractor;
neither it nor its principals, partners, employees, or subcontractors were servants, agents, or employees of Continental; BH Flowtest was an “expert” in the work it would
perform; its employees and agents had been trained to follow applicable laws and work safely; and all of its equipment had been thoroughly tested and inspected for safety
purposes. Id.
BH Flowtest didn’t perform flow-testing itself. Instead, it subcontracted the task to a series of corporations
and entities, all of which were also based in Montana:
Black Rock Testing, Inc., which in turn subcontracted it to
Janson Palmer (doing business as Black Gold Testing),
who in turn subcontracted with Zachary Buckles (doing

-4business as Dozer Testing, Inc.)—a childhood friend who
was just nineteen. Id.
Buckles and Janson began their manual tank-gauging
duties at the Columbus Federal/Tallahassee complex in
mid-March 2014. Id. For about six weeks, they established
a routine: living out of an onsite trailer, they worked alternating twelve-hour day (Palmer) and night (Buckles)
shifts, taking hourly manual readings of the level of crude
in the site’s tanks and sending reports back to Continental’s office in Sidney, Montana. App. 3–5, 48. But on April
28, 2014, Buckles was found dead at the site—killed by exposure to toxic levels of hydrocarbon vapors. App. 48.
3. Like the Bakken itself, Continental’s operations do
not conform neatly to state boundaries. The site where
Buckles died was no different: The field office that supervised the complex wasn’t located in North Dakota, but just
over the Montana border in a town called Sidney. App. 51.
The Sidney, Montana office provided close oversight
over the subject site and many like it. Its employees managed production and daily operations, set flow rates, directed subcontractors’ work, and managed safety conditions. App. 11, 48, 52.
For instance, Continental’s Bakken Production Manager worked out of Montana to ensure that each tank battery was constructed, had personnel to take care of the
well, and was producing safely. App. 50. And the company’s Sidney Production Superintendent was responsible
for daily well operations: Using a company vehicle, he circulated among the sites under the office’s supervision,
conducting regular well checks and ensuring that oil was
getting sold, water moved out, and maintenance scheduled. App. 51.

-5Similarly, the Montana office’s lease operator was responsible for checking equipment at the subject site daily
as part of his regular route—including checking for leaks
and other safety hazards and confirming that equipment
was functioning properly. App. 13–14. While performing
this role, he even saw Palmer long enough to say hello
while Palmer worked the day shift, ask if there were “any
problems,” and “get numbers” from him. App. 14.
The Montana office also was closely involved in managing safety at the sites it supervised. It employed the
head of Continental’s companywide safety division, who
also worked as the office’s safety specialist. App. 48. And
it imposed a range of safety measures, including conducting reviews to ensure that workers had proper Personal
Protective Equipment (PPE) and holding monthly safety
meetings in Sidney—some of which included training on
how employees should conduct themselves around the
gases present at tank and well sites. App. 51.
The company’s measures weren’t restricted to its employees. Although independent contractors didn’t attend
the Sidney meetings, they were required to “follow certain
guidelines”—which Continental “made sure they did.”
App. 13, 50. “[E]veryone” working on a well site was required to carry a gas monitor. App. 14. The company’s
PPE reviews covered both employees and independent
contractors. App. 51. And when company representatives
working out of the Montana office observed an independent contractor not following safety guidelines, they would
give direction to address the problem. App. 13. Finally, the
company “retained ultimate authority” over its well sites,
including the ability to “shut down the operation immediately if one of its employees observed something unsafe”

-6or to fire contractors who were not following guidelines
“on the spot.” App. 13.
B. Procedural background
1. Following Zachary Buckles’s death, his personal
representative sued Continental, BH Flowtest, Black
Rock, and Black Gold on behalf of Buckles and his heirs in
Montana district court. Asserting that tank gauging of
crude oil production tanks is an inherently dangerous activity, the complaint alleged that each of the defendants
breached its duties under Montana and federal law by allowing the site to be operated from Montana with inadequate air monitoring equipment in place and by providing
inadequate training for Buckles. App. 5. The complaint alleged claims for negligence, negligent infliction of emotional distress, and loss of consortium. App. 92–94.
Continental filed a motion to dismiss for lack of personal jurisdiction, arguing that the district court lacked either specific or general jurisdiction over the estate’s
claims against it. The district court summarily granted the
motion, App. 85–86, but the Montana Supreme Court reversed with respect to specific jurisdiction and remanded
for an evidentiary hearing. App. 5–6, 60.1
Following that evidentiary hearing, the district court
reached the findings of fact summarized above, including
that Continental’s Sidney, Montana office exercised substantial oversight over the Columbus Federal/Tallahassee
site. App. 46–52. But it nevertheless concluded that it
lacked specific personal jurisdiction over Continental. According to the district court, because the “unsafe work
1

Meanwhile, several of the other defendants sought a declaration
of state law, and the district court concluded that Montana law applies. See App. 6 n.2.

-7site” where Buckles died was located in North Dakota, and
because any inadequate training Buckles received “materialized” there, there was an insufficient connection between the litigation and Continental’s Montana activities
to support specific personal jurisdiction under Montana’s
long-arm statute. App. 56–57.
The Montana Supreme Court disagreed. In a majority
and a concurrence, its justices identified two separate reasons why the evidence the parties had introduced was sufficient to withstand Continental’s motion.
2. The majority’s logic was that whether Continental
was subject to specific personal jurisdiction in Montana in
this case depended on whether Continental was vicariously liable for the torts of its contractors—a theory on
which Buckles had made at least a “prima facie showing.”
App. 14 & n.3. The majority recognized that Montana
courts may only exercise specific personal jurisdiction
over nonresident defendants like Continental if there is a
basis to do so under Montana’s long-arm statute—and if
the exercise of that jurisdiction comports with the “traditional notions of fair play and substantial justice embodied
in the Due Process Clause of the Fourteenth Amendment.” App. 16.
Whether due process is satisfied, the court explained,
depends on whether “(1) the nonresident defendant purposefully availed itself of the privilege of conducting activities in Montana, thereby invoking Montana’s laws; (2) the
plaintiffs’ claim arises out of or relates to the defendant’s
forum-related activities, and (3) the exercise of personal
jurisdiction is reasonable.” Id. (cleaned up).
In all this, the court recognized that the “primary focus” of the due-process inquiry was “the defendant’s relationship to the forum state.” App. 16 (cleaned up). It was

-8“not enough,” for instance, for the defendant to have
simply “general connections” with the forum state. App.
7–8. Instead, “the suit must arise out of or relate to the
defendant’s contacts with the forum.” Id. (quoting BristolMyers Squibb Co. v. Superior Court, 137 S. Ct. 1773, 1786
(2017)). As this Court had noted in Walden v. Fiore, 571
U.S. 277, 283 n.6 (2014), there must be “an affiliation between the forum and the underlying controversy, principally an activity or occurrence that takes place in the forum state and is therefore subject to the state’s regulation.” App. 8 (cleaned up). Nor could specific jurisdiction
be premised on a defendant’s “relationship with a third
party, standing alone.” App. 8 (citing Bristol-Myers
Squibb, 137 S. Ct. at 1781).
And similar principles applied under Montana’s longarm statute: Montana courts may exert specific jurisdiction “over any person if the claim arises out of that person’s transaction of business within the state.” App. 9
(quoting Grizzly Sec. Armored Express, Inc. v. Armored
Group, LLC, 255 P.3d 143, 147 (Mont. 2011)).
Beginning with the long-arm statute, the majority
concluded that the parties had introduced sufficient evidence to withstand Continental’s motion.
The majority acknowledged that a nonresident did not
subject itself to specific jurisdiction in Montana merely by
communicating or entering into a contract with a Montana
resident. App. 10. But that wasn’t the basis for specific
personal jurisdiction here. Instead, the parties had introduced evidence that Continental did much more, engaging
in “substantial” business activity in Montana—which was
linked to the Columbus Federal/Tallahassee site through
the Sidney office’s oversight. See App. 10, 11–12, 15. And

-9the estate had made a prima facie showing that Continental’s Montana business activity was linked to its claims too.
Under Montana law, the majority explained, Continental generally was not liable for torts committed at the
complex by its independent contractors—such as the failure to provide adequate training or equipment to subcontractors like Buckles. App. 12 (citing Beckman v. ButteSilver Bow County, 1 P.3d 348, 350 (Mont. 2000)). But
there are exceptions: Montana law provides that employers are vicariously liable when “(1) there is a non-delegable duty based on contract; (2) the activity is inherently or
intrinsically dangerous; or (3) the general contractor negligently exercises control reserved over a subcontractor’s
work.” App. 12 (quoting Stricker v. Blaine County, 453
P.3d 897, 901 (Mont. 2019)).
One of these exceptions might well apply in this
case—especially the second. After all, the Montana Supreme Court had already concluded that trenching activities on a worksite are inherently dangerous. See App. 12
(citing Beckman, 1 P.3d at 353). And Continental did not
dispute that safety concerns were “paramount in the oil
and gas industry”; to the contrary, its agents and employees had testified at length about the safety measures the
company imposed on employees and contractors alike.
App. 12–14.
But the majority stopped short of holding that Buckles had successfully made out a vicarious liability theory.
Instead, it held that that was a fact question—and that,
because the relevant jurisdictional facts were “intertwined with the merits,” it was preferable to defer a final
decision on the jurisdictional issues for trial. App. 14 & n.3
(quoting Data Disc, Inc. v. Systems Tech. Assoc., Inc., 557
F.2d 1280, 1285 n.2 (9th Cir. 1977)).

-10Similar logic applied to the due-process inquiry. Continental’s “extensive business activities in Montana”
demonstrated that it “purposefully availed itself of the
privilege of conducting activities within” the state. App.
17. And that fact, together with proof that Continental was
vicariously liable due to the inherently dangerous nature
of its operations would be sufficient to ensure that specific
jurisdiction in Montana “would not offend traditional notions of fair play and substantial justice.” App. 17.
3. Concurring and joined by two of his colleagues, Justice Sandefur explained that he would go one step further
than the majority: Rather than resting his conclusion on
the existence of issues of fact, he explained that he would
“more affirmatively hold” that the exercise of specific
Montana jurisdiction was proper. App. 18, 29. And that
was true not just with respect to the vicarious liability theory the majority had outlined, but with a direct liability
theory, too. See App. 23.
Here, Justice Sandefur explained, there was evidence
that Continental had “substantial claim-related business
contact with the North Dakota well site from Montana.”
App. 21–22. By “narrow[ly] focusing” on the “situs of injury and chain of independent contractors separating
Continental therefrom,” the district court had in fact overlooked two distinct bases for specific jurisdiction. App. 22–
23. First, as the majority had suggested, that Continental
was “vicariously liable based on a nondelegable duty of
care arising from the alleged abnormally dangerous activity or peculiar risk of harm at issue.” App. 23. And second,
that Continental was directly liable for the injury based on
the Montana field office’s retention of control over the well
site’s operations and conditions. App. 23.

-11In both cases, Buckles had done more than show a
prima facie case—he had presented sufficient evidence to
establish specific jurisdiction. See App. 24–25. As the majority had recognized, Continental exercised management
and supervisory control over daily operations at the well
site and maintained the right and authority to set flow
rates as well as to determine the standards of performance
of independent contract work. App. 22. And Continental’s
contract with BH Flowtest didn’t defer or delegate site responsibility—instead, Continental “retained ultimate authority and control,” which it exercised to ensure that contractors and employees alike complied with basic safety
requirements. App. 22.
Accordingly, supervisory employees were dispatched
from the Sidney, Montana office to direct site operations
and with the “duty to detect and correct on-site safety
problems.” App. 24. Put together, these relationships provided “ample evidence upon which Buckles could conceivably prove that the alleged breach of duty by Continental
at least partially occurred in or arose from Montana.” Id.
All this meant that Buckles met the Montana longarm statute’s requirement that the asserted claims for relief arose from “any business” conducted by Continental
within Montana. App. 25 (citing Mont. R. Civ. P.
4(b)(1)(A)). And he met the requirements of due process,
too. See App. 26–28. By engaging in substantial business
activity in Montana, Continental purposefully benefited
from the privilege of conducting business in the state and
subjecting itself to Montana laws. App. 27. The same logic
that supported long-arm jurisdiction explained why the
claim at issue arose from or related to Continental’s forum-related activities. And the exercise of specific personal jurisdiction was reasonable, too. App. 27–28.

-12Appearing in Montana would impose a minimal burden on
Continental. App. 28. Montana’s interest in the dispute
was “no less than North Dakota’s.” Id. And adjudication
in Montana would serve Buckles’s “interest and prerogative to choose the forum” without unfair or undue burden
on Continental. Id.
REASONS FOR DENYING THE WRIT
This petition presents no issues worthy of this Court’s
review. Its lead argument obscures the key jurisdictional
fact in this case: the plaintiffs’ allegations that the petitioner’s allegedly tortious conduct occurred in the forum
state. Because the question in the Ford cases is just the
opposite, it will make no difference to this case how this
Court rules in those cases. Nothing else about this case
independently warrants this Court’s attention either. The
Montana Supreme Court’s decision below was factbound,
closely tied up with yet-unresolved merits questions, and
supported by arguments in the alternative. Accordingly,
this Court should deny the petition.
I.

This Court’s decision in the Ford cases will make
no difference in this case.

A. This Court granted certiorari in the Ford cases to
resolve a question that has no bearing on the issues presented here. In those cases, the question presented is
whether a state court may exercise specific personal jurisdiction over the manufacturer of a mass-produced product
for claims based on an injury sustained in the forum state
when the product was marketed, sold, and serviced in the
forum state—but the specific widget or item that caused
the injury was designed, made, and sold elsewhere. See
Petition for Certiorari, Ford Motor Co. v. Montana
Eighth Judicial District Court, No. 19-368, at 3–4 (Sept.
18, 2019).

-13This case presents essentially the opposite jurisdictional facts. There, the acts or omissions that allegedly
gave rise to Ford’s liability—the manufacture, design, and
sale of the vehicles that injured the plaintiffs—occurred
outside the forum, while the car accident that injured the
plaintiffs occurred within it. By contrast, here, the acts or
omissions giving rise to Continental’s liability—inadequate supervision of its well and tank site—occurred
within the forum (in Montana), while the injury occurred
outside of it (in North Dakota). In light of this difference,
the outcome of the Ford cases is very unlikely to illuminate the question of specific personal jurisdiction in this
case.
The remote relationship between the Ford cases and
this one is made apparent when one considers the question
presented in those cases, framed as Ford put it:
“[W]hether the ‘arise out of or relate to’ requirement is
met when none of the defendant’s forum contacts caused
the plaintiff’s claims, such that the plaintiff’s claims would
be the same even if the defendant had no forum contacts.”
Id. at i.
If, as Ford urges, the “arise out of or relate to” prong
of specific personal jurisdiction is not met when none of
the defendant’s forum contacts caused the plaintiffs’
claims, nothing would change here: The plaintiffs did allege that Continental’s in-forum contacts caused their
claims. Put differently, if Continental didn’t do the things
it did (or failed to do) at the Sidney, Montana office, then
the claims wouldn’t be the same—because those claims
depend on the plaintiffs’ allegations that the supervision
that Continental provided from Montana was inadequate.
By contrast, if the Court declines to adopt Ford’s
novel proximate-cause test and instead holds that the

-14“arise out of relate to” prong is satisfied when a defendant
has deliberately cultivated a market for its product in the
state and that product causes injury in the state, the plaintiffs and Continental are still right where they started.
That these conditions could be sufficient for specific personal jurisdiction does not, of course, mean that they are
necessary.
Either way, regardless of how this Court decides the
Ford cases, the outcome here is the same.
B. The dissimilarities between this case and the Ford
cases go beyond the formal question presented. The concerns raised by the Ford cases are also uniquely tied to
the general context in which they arise: the sale of massproduced consumer products, like cars, that are made and
sold in one state but resold used in another.
The Ford cases, in other words, deal with a quintessentially modern legal problem: When companies massproduce products to be sold in multiple states in a national
market, and one of those products injures a consumer,
how should courts evaluate whether it is consistent with
due process for the company to be haled into the courts of
a state of which the company is not a resident? Changes in
the structure of the American economy over the past century have made this question and those like it a persistent
and unresolved feature of the personal jurisdiction jurisprudence. “[T]echnological progress,” this Court has explained, has heightened the “need for jurisdiction over
nonresidents,” while “progress in communications and
transportation” has made “the defense of a suit in a foreign tribunal less burdensome.” Hanson v. Denckla, 357
U.S. 235, 250–51 (1958). But at the same time, the Fourteenth Amendment’s Due Process Clause acts as “an instrument of interstate federalism” to ensure that there

-15are more “affiliating circumstances” between a claim, a
defendant, and a forum than simply existing together as
part of an increasingly integrated national economy.
World-Wide Volkswagen Corp. v. Woodson, 444 U.S. 286,
294–95 (1980).
In mass-market products liability cases, this Court
has found its way to a balance. Due process requires more
than foreseeing that a product distributed in a few states
might be taken elsewhere. See id. at 297–98. But a manufacturer’s efforts to serve an out-of-state market “directly
or indirectly” may be sufficient when those sales are “not
simply an isolated occurrence” and the manufacturer’s
“allegedly defective merchandise” was a “source of injury
to its owner or to others.” Id.; see also, e.g., Keeton v. Hustler Magazine, 465 U.S. 770, 781 (1984) (nationwide publication “continuously and deliberately” exploiting an outof-state market).
These considerations have little relevance to the question here: Whether an Oklahoma corporation may be
haled into Montana courts when it conducts allegedly deficient supervision of oil and well sites from its Montana
field office. Even if it were jurisdictionally relevant that
the injury occurred just twenty miles over the Montana
border in North Dakota, it wouldn’t be for any of the reasons evaluated in cases involving mass-market products,
such as the extent of the market Continental has cultivated in Montana or whether it was foreseeable to Continental that its acts or omission might lead to injuries in (or
outside) the forum state.
C. Continental’s argument to the contrary ignores all
of this, insisting that the state-law vicarious-liability theory on which the court below premised its specific-jurisdiction conclusion raises causation questions similar to

-16those at issue in the Ford cases. But that is plainly mistaken. As explained above, the plaintiffs do allege a causal
connection between Continental, Montana, and their
claims. Continental’s extensive supervision of the site
from its Montana field office—including retaining the authority to set flow rates, dispatching employees to direct
site operations and correct safety problems, allocating
safety equipment, and even firing workers who didn’t
comply—establishes a direct relationship between Continental’s Montana operations and the conditions at the site
of injury. App. 13–14.
The fact that specific jurisdiction may turn on vicarious liability under Montana state law doesn’t counsel otherwise. The purpose of vicarious liability is to cause employers to take protective measures that they might prefer to contract out. See W. Page Keeton et al., Prosser and
Keeton on Torts § 69, at 500–01 (5th ed. 1984); Alan O.
Sykes, The Economics of Vicarious Liability, 93 Yale L.J.
1231, 1236–39 (1984). Treating safety measures at a dangerous oilwell site as non-delegable duties does not mean
that Continental’s Montana conduct was irrelevant, but instead establishes a direct link between Buckles’s injury
and the company’s acts or omissions in its Montana-based
supervision of the site.
II. The factbound issues that this case actually
presents make it a poor candidate for certiorari.
Regardless of its relationship to the Ford cases, this
case presents a poor candidate for certiorari to review the
Montana court’s assessment of the relevance of Continental’s Montana-based tortious activity. Continental seeks
review of a factbound set of issues that the court below
acknowledged may be further illuminated by trial. And, by
a separate writing, the court below laid out a distinct

-17theory by which specific personal jurisdiction was appropriate here, further minimizing the usefulness of this
Court’s intervention.
To begin with, the jurisdictional issues in this case are
factually complex—and ultimately tied up with yet unresolved merits issues. See App. 14–16. To arrive at its current procedural posture—review of Continental’s motion
to dismiss—the parties have made multiple trips to the
Montana Supreme Court, see App. 1–41, 59–84, and conducted months of jurisdictional discovery, including numerous depositions, see App. 46–52.
That personal jurisdiction issues may be complicated
and factbound is no surprise. As this Court has emphasized, the personal-jurisdiction test “is not susceptible of
mechanical application; rather, the facts of each case must
be weighed to determine whether the requisite ‘affiliating
circumstances’ are present.” Kulko v. Superior Court, 436
U.S. 84, 92 (1978). But this case isn’t just complicated because it has required the Montana courts to disentangle
the relationship between Continental’s Sidney, Montana
office and its well sites, or among its various contractors
and subcontractors. As the decision below explained, this
is also the rare case where jurisdictional facts are so intertwined with the merits that the Montana Supreme Court
thought they were best resolved together at trial. App. 14
& n.3.
That feature of the case would make it difficult or impossible for this Court to meaningfully review the decision
below at this juncture. To be sure, that there has not yet
been a trial on the merits does not, as a jurisdictional matter, preclude this Court’s review when a judgment “is
plainly final on the federal issue and is not subject to further review in the state courts.” Calder v. Jones, 465 U.S.

-18783, 788 n.8 (1984) (quoting Cox Broadcasting Corp. v.
Cohn, 420 U.S. 469, 485 (1975)). But, as a prudential matter, there is little point in reviewing the federal-law question at this juncture. The plaintiffs have adduced sufficient
jurisdictional facts to establish a prima facie case of specific personal jurisdiction—and the final determination of
that issue, at least under the theory adopted by the court
below, depends on underlying merits questions.
Nor is there any jurisdictional or prudential basis for
this Court to entertain Continental’s plea for error correction concerning vicarious liability under Montana law. For
one thing, the Montana Supreme Court got the law right.
The allegedly deficient supervision of the drilling site by
Continental and its agents in Montana provides a clear
“affiliation between the forum and the underlying controversy.” Bristol-Myers Squibb, 137 S. Ct. at 1781 (cleaned
up). That Continental’s liability for those deficiencies depends in part on the application of a “legal” doctrine, as
petitioner emphasizes (at 19–24), makes no difference at
all—just as it would make no difference if its liability
hinged on the “legal” questions whether Buckles was an
employee or an independent contractor, or on the interpretation of some term in one of Continental’s contracts.
And in any event, the concurrence below amply
demonstrates that Continental was either directly or vicariously responsible—through its Montana-based acts or
omissions—for the safety conditions at the drilling site
where Buckles was injured and died.
Under either theory, the other due-process requirements are easily met here, too. Continental’s Sidney operations, including its agents’ supervision failures, constitute “activities” it has “purposefully directed” at the forum. Keeton, 465 U.S. at 472. And Montana courts’

-19jurisdiction here is reasonable. Continental is not burdened by defending itself in a state in which it has extensive operations; Montana has a clear interest, albeit one
shared by North Dakota, in adjudicating whether corporate agents operating within its borders provide adequate
supervision over dangerous well sites, and it is efficient
and within the plaintiffs’ interests to resolve this controversy in the same state of which the plaintiffs and the subcontractors all are citizens. See World-Wide Volkswagen,
444 U.S. at 292; Bristol-Myers Squibb, 137 S. Ct. at 1786.
CONCLUSION
This Court should deny Continental Resources’ petition for a writ of certiorari.
Respectfully submitted,
DEEPAK GUPTA
Counsel of Record
LINNET DAVIS-STERMITZ
GUPTA WESSLER PLLC
1900 L St. NW, Suite 312
Washington, DC 20036
(202) 888-1741
deepak@guptawessler.com
A. CLIFFORD EDWARDS
EDWARDS & CULVER
1648 Polly Dr., Suite 206
Billings, MT 59102
(406) 256-8155
cliff@edwardslawfirm.org
January 22, 2021

Counsel for Respondents

